                                                             O FFICE OF A UDIT S ERVICES , R EGION VI
                                                                1100 C OMMERCE S TREET , R OOM 632
                                                                                  D ALLAS , TX 75242
June 13, 2012



Report Number: A-06-09-00107

Mr. Don Gregory
Medicaid Director
Louisiana Department of Health and Hospitals
P.O. Box 91030
Baton Rouge, LA 70821-9030

Dear Mr. Gregory:

Enclosed is the U.S. Department of Health & Human Services (HHS), Office of Inspector
General (OIG), final report entitled Review of Louisiana Medicaid Personal Care Services
Provided by American Pride Caregivers, LLC. We will forward a copy of this report to the HHS
action official noted on the following page for review and any action deemed necessary.

The HHS action official will make final determination as to actions taken on all matters reported.
We request that you respond to this official within 30 days from the date of this letter. Your
response should present any comments or additional information that you believe may have a
bearing on the final determination.

Section 8L of the Inspector General Act, 5 U.S.C. App., requires that OIG post its publicly
available reports on the OIG Web site. Accordingly, this report will be posted at
http://oig.hhs.gov.

If you have any questions or comments about this report, please do not hesitate to call me at
(214) 767-8414, or contact Paul Garcia, Audit Manager, at (512) 339-3071 or through email at
Paul.Garcia@oig.hhs.gov. Please refer to report number A-06-09-00107 in all correspondence.

                                             Sincerely,



                                             /Patricia Wheeler/
                                             Regional Inspector General
                                               for Audit Services

Enclosure
Page 2 – Mr. Don Gregory


Direct Reply to HHS Action Official:

Ms. Jackie Garner
Consortium Administrator
Consortium for Medicaid and Children’s Health Operations
Centers for Medicare & Medicaid Services
233 North Michigan Avenue, Suite 600
Chicago, IL 60601
 Department of Health and Human Services
             OFFICE OF
        INSPECTOR GENERAL




 REVIEW OF LOUISIANA MEDICAID
PERSONAL CARE SERVICES PROVIDED
 BY AMERICAN PRIDE CAREGIVERS,
             LLC




                        Daniel R. Levinson
                         Inspector General

                            June 2012
                          A-06-09-00107
                        Office of Inspector General
                                          http://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health and Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                                   EXECUTIVE SUMMARY

BACKGROUND

Pursuant to Title XIX of the Social Security Act, the Medicaid program provides medical
assistance to low-income individuals and individuals with disabilities. The Federal and State
Governments jointly fund and administer the Medicaid program. At the Federal level, the
Centers for Medicare & Medicaid Services (CMS) administers the program. Each State
administers its Medicaid program in accordance with a CMS-approved State plan. Although the
State has considerable flexibility in designing and operating its Medicaid program, it must
comply with applicable Federal requirements. In Louisiana, the Department of Health and
Hospitals, Bureau of Health Services Financing (the State agency), is responsible for
administering the Medicaid program.

Pursuant to 42 CFR § 440.167, personal care services may be provided to individuals who are
not inpatients at a hospital or residents of a nursing facility, an intermediate care facility for
individuals with intellectual disabilities, or an institution for mental disease. The services must
be (1) authorized by a physician or, at the State agency’s option, otherwise authorized in
accordance with a service plan approved by the State agency; (2) provided by an attendant who
is qualified to provide such services and who is not a member of the individual’s family; and (3)
furnished in a home or, at the State agency’s option, at another location. Examples of personal
care services include, but are not limited to, cleaning, shopping, grooming, and bathing.

The State agency reported to CMS personal care services expenditures of approximately $472
million ($348 million Federal share) during the period October 1, 2006, through March 31, 2009.
Of that amount, American Pride Caregivers, LLC (American Pride), a personal care services
provider in Melville, Louisiana, received $4,961,211 ($3,646,917 Federal share).

Objective

Our objective was to determine whether the State agency ensured that American Pride’s claims
for Federal reimbursement of Medicaid personal care services complied with Federal and State
requirements.

SUMMARY OF FINDINGS

The State agency did not always ensure that American Pride’s claims for Federal Reimbursement
of Medicaid personal care services complied with Federal and State requirements. Of the 100
sampled claims, 14 claims complied with requirements. However, the remaining 86 claims did
not comply with requirements.

       Services included in 16 claims were provided by employees who did not meet the State
       agency’s minimum training requirements as of the date the service was provided (15
       claims) or did not meet the minimum education and experience requirements (1 claim).
       As a result, American Pride received an overpayment of $2,324 ($1,675 Federal share)
       for these claims.

                                                 i
       Services included in 70 claims were provided by employees who did not complete the
       training requirements in the time period required by the State agency’s regulations.
       However, these employees obtained the required minimum hours of training before the
       dates of service. As such, we did not include these claims in our estimate of
       overpayments.

These deficiencies occurred because (1) American Pride did not follow all of the State agency’s
employee qualification requirements and (2) the State agency did not effectively monitor its
personal care services providers for compliance with the State agency’s requirements.

Based on our sample, we estimated that American Pride received at least $119,318 (Federal
share) of unallowable reimbursement for personal care services during the period October 1,
2006, through March 31, 2009.

RECOMMENDATIONS

We recommend that the State agency:

       refund to the Federal Government the estimated $119,318 Federal share paid to American
       Pride for unallowable personal care services,

       ensure that personal care services providers implement controls to ensure that their
       employees meet all of the State agency’s applicable employee training requirements, and

       ensure that its personal care services providers understand employee training
       requirements and that it improves its monitoring of personal care services providers to
       identify issues of noncompliance with training requirements.

AMERICAN PRIDE COMMENTS AND OFFICE OF INSPECTOR GENERAL
RESPONSE

In its written comments on our draft report, American Pride did not comment on the validity of
our findings, nor did it provide any additional information that would lead us to change our
findings or recommendations. American Pride’s comments are included in their entirety as
Appendix D.

STATE AGENCY COMMENTS

In its written comments on our draft report, the State agency concurred with our
recommendations. The State agency said that it has implemented corrective actions, including a
revision of its training requirements.

The State agency’s comments are included in their entirety as Appendix E.




                                               ii
                                                  TABLE OF CONTENTS

                                                                                                                                      Page

INTRODUCTION......................................................................................................................1

          BACKGROUND .............................................................................................................1
              Louisiana’s Personal Care Services Program ......................................................1
              Federal and State Requirements...........................................................................1
              Personal Care Services Expenditures...................................................................2

          OBJECTIVE, SCOPE, AND METHODOLOGY ...........................................................2
               Objective ..............................................................................................................2
               Scope ....................................................................................................................3
               Methodology ........................................................................................................3

FINDINGS AND RECOMMENDATIONS ............................................................................4

          EMPLOYEE QUALIFICATION DEFICIENCIES ........................................................4
              State Requirements ..............................................................................................4
              Requirements Not Met by the Claimed Dates of Service ....................................5
              Requirements Not Met in the Required Time Period ..........................................5

          CAUSES OF DEFICIENCIES ........................................................................................6

          EFFECT OF DEFICIENCIES THAT RESULTED IN OVERPAYMENTS .................6

          RECOMMENDATIONS .................................................................................................6

AMERICAN PRIDE COMMENTS AND OFFICE OF INSPECTOR GENERAL
    RESPONSE ....................................................................................................................6

STATE AGENCY COMMENTS .............................................................................................6

OTHER MATTER.....................................................................................................................7

APPENDIXES

          A: SAMPLE DESIGN AND METHODOLOGY

          B: SAMPLE RESULTS AND ESTIMATES

          C: REASONS FOR DEFICIENT CLAIM LINES

          D: AMERICAN PRIDE COMMENTS

          E: STATE AGENCY COMMENTS
                                                                    iii
                                              INTRODUCTION

BACKGROUND

Pursuant to Title XIX of the Social Security Act (the Act), the Medicaid program provides
medical assistance to low-income individuals and individuals with disabilities. The Federal and
State Governments jointly fund and administer the Medicaid program. At the Federal level, the
Centers for Medicare & Medicaid Services (CMS) administers the program. Each State
administers its Medicaid program in accordance with a CMS-approved State plan. Although the
State has considerable flexibility in designing and operating its Medicaid program, it must
comply with applicable Federal requirements. In Louisiana, the Department of Health and
Hospitals, Bureau of Health Services Financing (the State agency), is responsible for
administering the Medicaid program.

Louisiana’s Personal Care Services Program

Louisiana’s personal care services program1 provides limited assistance to recipients whose
personal care needs would otherwise require that they be placed in a nursing facility rather than
remain in their homes. Personal care services must be authorized in advance and provided in
accordance with an approved plan of care and supporting documentation. The State agency
contracts with a third-party assessor to perform an in-home assessment for each recipient to
determine the types and amounts of care needed and develop a personal care services plan.
Examples of personal care services include, but are not limited to, cleaning, shopping, grooming,
and bathing.

Federal and State Requirements

Pursuant to section 1905(a)(24) of the Act and implementing Federal regulations (42 CFR
§ 440.167), personal care services may be provided to individuals who are not inpatients at a
hospital or residents of a nursing facility, an intermediate care facility for individuals with
intellectual disabilities,2 or an institution for mental disease. The services must be (1) authorized
for an individual by a physician or, at the State agency’s option, otherwise authorized in
accordance with a service plan approved by the State agency; (2) provided by an attendant who
is qualified to provide such services and who is not a member of the individual’s family; and (3)
furnished in a home or, at the State agency’s option, at another location.

Louisiana Medical Assistance Program State Plan, Att. 4.19-B, item 26, Standards of Payment,
states that providers shall comply with standards for participation established by the State
agency.


1
  The State Medicaid plan contains two personal care services programs: one for the early periodic screening,
diagnosis, and treatment population, and one for long-term personal care services. Our report refers only to long-
term personal care services.
2
 Changes in terminology are based on Rosa’s Law (P.L. No. 111-256). For more information, see CMS Final Rule,
77 Fed. Reg. 29002, 29021, and 29028 (May 16, 2012).

                                                         1
Louisiana Administrative Code (LAC) Title 50, part XV,3 sections 12909(A)(1)(b) and (B)(4),
require personal care services providers participating in the Medicaid program to comply with
Medicaid provider enrollment requirements. In addition, a Medicaid-enrolled agency must
ensure that the direct care staff is qualified to provide personal care services and ensure that all
employees satisfactorily complete an orientation and training program in the first 30 days of
employment.

LAC Title 50, part XV, section 12911(F), requires that personal care services employees (1)
receive a minimum of 8 hours of orientation within 1 week of employment, (2) receive training
in cardiopulmonary resuscitation (CPR) and basic first aid within 1 week of employment, (3)
receive a minimum of 16 hours of training within 30 days of employment, and (4) satisfactorily
complete a minimum of 20 hours of annual training related to providing personal care services.

LAC Title 50, part XV, sections 12911(A) and (B)(2), require that personal care services
agencies participating in the Medicaid program ensure that all staff providing direct care to
recipients meet the qualifications for furnishing personal care services. All personal care
services employees must have one of the following minimum education and experience
qualifications: (1) a high school diploma or general equivalency diploma (GED); (2) a trade
school diploma in the area of human services; or (3) documented, verifiable experience
providing personal care services to the elderly and/or persons with disabilities.

Personal Care Services Expenditures

Pursuant to section 1905(b) of the Act, the Federal Government pays its share of a State’s
medical assistance expenditures under Medicaid based on the Federal medical assistance
percentage (FMAP), which varies depending on the State’s relative per capita income. From
October 1, 2006, to March 31, 2009, Louisiana’s FMAP ranged from 69.69 percent to 80.01
percent. The State agency reported to CMS personal care services expenditures of about
$472 million ($348 million Federal share) during the period October 1, 2006, through March 31,
2009. Of that amount, American Pride Caregivers, LLC (American Pride),4 a personal care
services provider in Melville, Louisiana, received $4,961,211 ($3,646,917 Federal share).

OBJECTIVE, SCOPE, AND METHODOLOGY

Objective

Our objective was to determine whether the State agency ensured that American Pride’s claims
for Federal reimbursement of Medicaid personal care services complied with Federal and State
requirements.

3
    The State agency established all of the LAC provisions cited in this report.
4
  During our audit work, Southern Home Care Service, Inc., an entity fully owned by Res-Care, Inc., purchased
substantially all of American Pride’s operating assets (including all rights to American Pride’s company name),
effective February 14, 2010. Southern Home Care Service, Inc., now operates as American Pride Caregivers of St.
Landry Parish.


                                                             2
Scope

This audit covered the $4,961,211 the State agency paid to American Pride for 46,309 claim
lines (hereafter referred to as “claims”) paid for the period October 1, 2006, through March 31,
2009. We limited our review of internal controls to the State agency’s oversight of personal care
services providers and American Pride’s procedures for maintaining documentation related to
employees and recipients.

We conducted our fieldwork at the State agency office and the third-party assessor’s office, both
of which are in Baton Rouge, Louisiana, and at American Pride’s office in Melville, Louisiana.

Methodology

To accomplish our objective, we:

        reviewed Federal and State requirements for the Medicaid personal care services
        program;

        interviewed State agency and third-party assessor officials to gain an understanding of the
        personal care services program;

        obtained from the Medicaid Management Information System fiscal agent claims data for
        personal care services that were paid from October 1, 2006, through March 31, 2009, and
        reconciled the totals to the amounts claimed during the same period on the Form CMS-
        64, Quarterly Medicaid Statement of Expenditures for the Medical Assistance Program;

        selected American Pride to review based on payments for personal care services claims it
        received totaling $4,961,211 for the audit period;

        selected a random sample of 100 American Pride claims (Appendix A);

        met with American Pride officials to gain an understanding of American Pride’s policies
        and procedures and of documentation in American Pride’s recipient and employee
        personnel files;

        identified the employee(s) included in each sampled claim and obtained documentation
        American Pride maintained in the identified employee(s) personnel files;

        evaluated the documentation obtained for each sample claim to determine whether it
        complied with Federal and State Medicaid requirements;

        discussed the results of our audit with officials from the State agency and American
        Pride; and

        estimated the unallowable Federal Medicaid reimbursement paid for the 46,309 claims
        (Appendix B).

                                                 3
We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objective.

                          FINDINGS AND RECOMMENDATIONS

The State agency did not always ensure that American Pride’s claims for Federal Reimbursement
of Medicaid personal care services complied with Federal and State requirements. Of the 100
sampled claims, 14 claims complied with requirements. However, the remaining 86 claims did
not comply with requirements.

        Services included in 16 claims were provided by employees who did not meet the State
        agency’s minimum training requirements as of the date the service was provided (15
        claims) or did not meet the minimum education and experience requirements (1 claim).
        As a result, American Pride received an overpayment of $2,324 ($1,675 Federal share)
        for these claims.

        Services included in 70 claims were provided by employees who did not complete the
        training requirements in the time period required by the State agency’s regulations.
        However, these employees obtained the required minimum hours of training before the
        dates of service. As such, we did not include these claims in our estimate of
        overpayments.

See Appendix C for details on the deficiencies identified by sample claim.

These deficiencies occurred because (1) American Pride did not follow all of the State agency’s
employee qualification requirements and (2) the State agency did not effectively monitor its
personal care services providers for compliance with the State agency’s requirements.

Based on our sample, we estimated that American Pride received at least $119,318 (Federal
share) of unallowable reimbursement for personal care services during the period October 1,
2006, through March 31, 2009.

EMPLOYEE QUALIFICATION DEFICIENCIES

State Requirements

LAC Title 50, part XV, section 12909(B)(4), requires that a Medicaid-enrolled agency ensure
that employees are qualified to provide personal care services and ensure that employees
satisfactorily complete an orientation and training program in the first 30 days of employment.

LAC Title 50, part XV, sections 12911(F)(1),(3), and (4), require that personal care services
employees complete a minimum of 8 hours of orientation within 1 week of employment,
complete a minimum of 16 hours of training within 30 days of employment, and satisfactorily

                                                4
complete a minimum of 20 hours of annual training related to providing personal care services.
In addition, LAC Title 50, part XV, section 12911(F)(2), requires that new personal care services
employees receive training in CPR and basic first aid within 1 week of employment.

LAC Title 50, part XV, sections 12911(A) and (B)(2), require that personal care services
agencies participating in the Medicaid program ensure that all employees providing personal care
services meet the appropriate qualifications. All personal care services workers must have one
of the following minimum education and experience qualifications: (1) a high school diploma or
GED; (2) a trade school diploma in the area of human services; or (3) documented, verifiable
experience providing personal care services to the elderly and/or persons with disabilities.

Requirements Not Met by the Claimed Dates of Service

Of the 86 claims that did not comply with requirements, 16 were provided by employees who did
not meet the minimum training or education and experience requirements. Of these 16 claims,
services included in 15 were provided by employees who did not obtain 16 hours of initial
training or did not receive CPR and basic first aid by the claimed dates of service. Some claims
had multiple deficiencies. Specifically, for these 15 claims, the employees did not obtain:

       the minimum number of initial training hours (10 claims),

       CPR certification (9 claims), and

       first aid certification (8 claims).

For 1 of the 16 claims, American Pride could not provide evidence that the employee had met the
minimum education and experience qualifications.

Requirements Not Met in the Required Time Period

Of the 86 claims that did not comply with requirements, services included in 70 claims were
provided by employees who did not complete training within the time period required by the
State agency. Some of these employee claims had multiple deficiencies. Specifically, the
employees did not obtain:

       the minimum number of initial training hours within 30 days of employment (57 claims),

       CPR certification within 1 week of employment (50 claims),

       first aid certification within 1 week of employment (41 claims), and

       the minimum number of orientation hours within 1 week of employment (1 claim).




                                                5
CAUSES OF DEFICIENCIES

These deficiencies occurred because (1) American Pride did not follow all of the State agency’s
employee qualification requirements and (2) the State agency did not effectively monitor its
personal care services providers for compliance with State agency requirements.

EFFECT OF DEFICIENCIES THAT RESULTED IN OVERPAYMENTS

Based on our sample, we estimated that American Pride received at least $119,318 (Federal
share) of unallowable reimbursement for personal care services (Appendix B).

RECOMMENDATIONS

We recommend that the State agency:

       refund to the Federal Government the estimated $119,318 Federal share paid to American
       Pride for unallowable personal care services,

       ensure that personal care services providers implement controls to ensure that their
       employees meet all of the State agency’s applicable employee training requirements, and

       ensure that its personal care services providers understand employee training
       requirements and that it improves its monitoring of personal care services providers to
       identify issues of noncompliance with training requirements.

AMERICAN PRIDE COMMENTS AND OFFICE OF INSPECTOR GENERAL
RESPONSE

In its written comments on our draft report, American Pride did not comment on the validity of
our findings. Rather, American Pride stated that it did not understand the formula we used to
determine the projected overpayment amount and believes that the removal of certain reported
deficiencies could cause the overpayment amount to increase. American Pride added that this
potential scenario discourages further reply and prohibits a proper defense to our findings.
American Pride’s comments are included in their entirety as Appendix D.

American Pride did not provide any additional information that would lead us to change our
findings or recommendations.

STATE AGENCY COMMENTS

In its written comments on our draft report, the State agency concurred with our
recommendations. The State agency said that it has implemented corrective actions, including a
revision of its training requirements.

The State agency’s comments are included in their entirety as Appendix E.


                                               6
                                      OTHER MATTER

We judgmentally selected 31 employees’ timesheets and training records (separate from our
statistical sample) to review for time conflicts. We found that 11 employees claimed on their
timesheets that they were working with recipients while, according to their individual training
records, they were completing the required training classes. The time conflicts ranged from one
occurrence for one employee to seven occurrences for another employee. In addition, the
overlap in time ranged from 30 minutes for one employee to 3 hours and 45 minutes for another
employee.




                                               7
                APPENDIX A: SAMPLE DESIGN AND METHODOLOGY

POPULATION

The population consisted of Medicaid claim lines submitted by the Louisiana Department of
Health and Hospitals for personal care services provided by American Pride Caregivers, LLC
(American Pride), and paid during the period October 1, 2006, through March 31, 2009.

SAMPLING FRAME

The sampling frame consisted of 46,309 personal care services claim lines totaling $4,961,211
for the period October 1, 2006, through March 31, 2009.

SAMPLE UNIT

The sample unit was a personal care services claim line for which the State reimbursed American
Pride.

SAMPLE DESIGN

We used a simple random sample.

SAMPLE SIZE

We selected a sample of 100 claim lines.

SOURCE OF RANDOM NUMBERS

We used Office of Inspector General, Office of Audit Services, statistical software to generate
the random numbers.

METHOD OF SELECTING SAMPLE ITEMS

We consecutively numbered the sample units in the sampling frame from 1 to 46,309. After
generating 100 random numbers, we selected the corresponding frame items.

ESTIMATION METHODOLOGY

We used Office of Inspector General, Office of Audit Services, statistical software to estimate the
total value of overpayments.
              APPENDIX B: SAMPLE RESULTS AND ESTIMATES

                                   Sample Results

                                                       No. of       Value of
           Value of                  Value of        Sampled        Sampled
Sampling    Frame                     Sample        Claim Lines Deficient Claim
 Frame     (Federal     Sample       (Federal          With           Lines
  Size      Share)       Size         Share)        Deficiencies (Federal Share)

 46,309    $3,646,917     100             $6,775        16                $1,675


                              Estimated Overpayments
               (Limits Calculated for a 90-Percent Confidence Interval)
                                   (Federal Share)

                         Point estimate             $775,606
                         Lower limit                 $119,318
                         Upper limit               $1,431,895
                                                                                                   Page 1 of 3


                    APPENDIX C: REASONS FOR DEFICIENT CLAIM LINES


      Requirements Not Met by the Claimed Dates of Service
1     Minimum number of initial training hours (16 hours)
2     Cardiopulmonary Resuscitation (CPR) certification
3     First aid certification
4     Minimum education and experience qualifications
      Requirements Not Met in the Required Time Period
5     Orientation hours (8 hours)
6     Initial training hours (16 hours)
7     CPR certification
8     First aid certification




                                                                          No. of           Sample Item
     No.        1      2      3      4      5      6      7      8      Deficiencies          No.1
      1                                            X                         1                  1
      2                                            X                         1                  3
      3                X      X                                              2                  4
      4                                            X      X                  2                  5
      5                                            X      X      X           3                  7
      6                                                   X      X           2                  8
      7                                            X                         1                 10
      8                                            X      X      X           3                 11
      9                                            X                         1                 12
     10                                            X      X      X           3                 14
     11                                                   X      X           2                 15
     12                                            X                         1                 17
     13                                                   X      X           2                 19
     14                                            X      X                  2                 20
     15                X                                                     1                 21
     16         X                                                            1                 22
     17                                            X                         1                 23
     18                                            X      X      X           3                 24
     19                                            X      X      X           3                 25
     20                                            X      X                  2                 26
     21                                            X                         1                 27
     22                                            X      X                  2                 29
     23         X                                                            1                 30

1
    We include the “Sample Item No.” column as a cross-reference to the specific sample item.
                                                             Page 2 of 3



                                        No. of       Sample Item
No.   1   2   3   4   5   6   7   8   Deficiencies      No.1
24                        X                1             31
25                        X   X   X        3             32
26    X                                    1             34
27        X   X                            2             35
28                        X   X   X        3             36
29                        X   X   X        3             37
30                        X   X   X        3             38
31                        X   X   X        3             39
32                            X   X        2             40
33                X                        1             41
34                            X   X        2             42
35                            X   X        2             43
36                        X   X            2             46
37                        X   X   X        3             47
38                            X   X        2             49
39    X                                    1             50
40                    X   X   X   X        4             51
41        X   X                            2             52
42                        X   X   X        3             53
43                        X   X   X        3             54
44                        X                1             56
45                            X   X        2             57
46                        X   X   X        3             58
47                        X   X   X        3             59
48                        X   X   X        3             60
49                        X   X   X        3             61
50                        X   X            2             62
51                        X   X   X        3             63
52                        X                1             64
53                        X                1             65
54                            X   X        2             66
55                        X   X            2             67
56                        X   X   X        3             68
57                        X                1             69
58    X   X   X                            3             70
59                        X                1             71
60                        X   X   X        3             72
61                            X   X        2             73
62                        X   X   X        3             74
63    X                                    1             75
64                        X                1             76
65                            X            1             77
                                                                   Page 3 of 3



                                              No. of       Sample Item
 No.    1    2   3   4   5   6    7    8    Deficiencies      No.1
 66                          X    X              2             78
 67                          X                   1             79
 68                          X    X    X         3             80
 69     X    X   X                               3             81
 70                               X    X         2             82
 71                          X                   1             83
 72     X    X   X                               3             84
 73                          X    X    X         3             85
 74                          X    X    X         3             86
 75                          X                   1             87
 76          X   X                               2             88
 77                          X         X         2             89
 78     X                                        1             90
 79                               X    X         2             91
 80                          X                   1             92
 81     X    X   X                               3             93
 82                          X    X    X         3             94
 83                          X                   1             95
 84                          X    X    X         3             96
 85                          X    X    X         3             99
 86                          X    X              2            100
Total   10   9   8   1   1   57   50   41       177
                                      Page 1 of 2


APPENDIX D: AMERICAN PRIDE COMMENTS
Page 2 of 2
                                    Page 1 of 2


APPENDIX E: STATE AGENCY COMMENTS
Page 2 of 2
